United States v. Williams, 976 F.3d 781 (2020)

sentencing recommendation and district court's
sentence were vindictive or that they denied him
due process. U.S. Const. Amend. 5.

976 F.3d 781
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Christopher WILLIAMS, Defendant-Appellant.

[2]

Holdings: The Court of Appeals, Benton, Circuit Judge, held
that:

[3]

[4]

[5]

Criminal Law

[6]
Sentencing and Punishment

Defendant's claims of sentencing vindictiveness
and denial of due process would be reviewed
only for plain error, where defendant did not
claim in district court either that government's

Criminal Law

Vindictive Prosecution

Sentencing and Punishment
Rights

Exercise of

Revising a sentencing recommendation for a
legitimate reason during a sentencing hearing is
not prosecutorial vindictiveness.

Procedural Posture(s): Appellate Review.

[1]

Vindictive Prosecution

Defendant must bear a heavy evidentiary
burden in order to demonstrate prosecutorial
vindictiveness, and the Court of Appeals
recognizes the broad discretion given to
prosecutors in enforcing criminal statutes.

Affirmed.

West Headnotes (10)

Criminal Law

While the government may take action to punish
a defendant for committing a crime, punishing a
defendant for exercising his valid legal rights is
impermissible prosecutorial vindictiveness.

[1] defendant failed to demonstrate any plain error by district
court in imposing an allegedly vindictive sentence ten months
higher than statutory minimum sentence for the firearms
offense charged, and
[2] sentencing court could determine whether potential
Armed Career Criminal Act (ACCA) predicate offenses
occurred on different occasions.

Necessity of Objections in

Plain error review is governed by four-part test,
under which an appellate court may correct an
error not raised at trial, but only if there is
(1) error, (2) that is plain, and (3) that affects
substantial rights.; if these three conditions are
met, then appellate court may then exercise its
discretion to notice a forfeited error if (4) the
error seriously affects the fairness, integrity, or
public reputation of judicial proceedings.

No. 19-2235
|
Submitted: September 25, 2020
|
Filed: September 30, 2020
|
Rehearing and Rehearing En
Banc Denied November 17, 2020
Synopsis
Background: Defendant was convicted, on guilty plea
entered in the United States District Court for the Western
District of Missouri, of being felon in possession of firearm,
and he appealed from the sentence imposed.

Criminal Law
General

Criminal Law

Sentencing and Punishment

Defendant failed to demonstrate any plain error
by district court in imposing an allegedly
vindictive sentence ten months higher than
statutory minimum sentence for the firearms
offense charged and the sentence that both
his defense counsel and prosecuting attorney

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App A

1

United States v. Williams, 976 F.3d 781 (2020)

had originally recommended before defendant,
concerned that his arguments for an even
lower sentence were not being adequately
presented, insisted on hearing on his request to
proceed pro se; neither prosecutor's decision to
withdraw original sentencing recommendation
on ground that defendant's conduct demonstrated
a lack of acceptance of responsibility nor
district court's decision to impose sentence
that was ten months higher than statutory
minimum, after thoroughly examining statutory
sentencing factors, was evidence of any improper
vindictiveness.
924(a)(2),

[7]

Criminal Law
in lower court

18 U.S.C.A. §§ 922(g)(1),
3553(a).

Mandate and proceedings

There is no presumption of judicial
vindictiveness on retrial or remand, if the judge
had no personal stake in prior proceedings.

[8]

[9]

Criminal Law

18 U.S.C.A. § 924(e).

*782 Appeal from United States District Court for the
Western District of Missouri–Kansas City
Attorneys and Law Firms
Rebecca L. Kurz, Asst. Fed. Public Defender, Kansas City,
MO (Laine Cardarella, Fed. Public Defender, on the brief),
for defendant-appellant.
J. Benton Hurst, Asst. U.S. Atty., Kansas City, MO (Timothy
A. Garrison, U.S. Atty., on the brief), for plaintiff-appellee.
Before SMITH, Chief Judge, BENTON and KOBES, Circuit
Judges.
Opinion
BENTON, Circuit Judge.

Review De Novo

Court of Appeals reviews de novo the district
court's application of the Armed Career Criminal

Christopher R. Williams pled guilty, without a plea
agreement, to possessing a firearm as a felon, in violation

Act (ACCA) sentence enhancement.
U.S.C.A. § 924(e).

of

Sentencing and Punishment
and charging instruments

18

Indictments

Not every fact expanding a penalty range must
be stated in a felony indictment; recidivism
increasing the maximum penalty need not be so
charged.

[10]

triggering the ACCA sentence enhancement;
issue did not need to be submitted to jury as
matter of due process. U.S. Const. Amend. 5;

Constitutional Law

Sentencing

Sentencing and Punishment
law or fact

Questions of

Sentencing court could determine whether
potential Armed Career Criminal Act (ACCA)
predicate offenses occurred on different
occasions, as required for each such offense
to qualify as separate offense, for purposes of

18 U.S.C. §§ 922(g)(1) and

924(a)(2). The district

1

court sentenced him to 190 months in prison pursuant
to the Armed Career Criminal Act (ACCA). He appeals,
challenging his sentence. Having jurisdiction under 28 U.S.C.
§ 1291, this court affirms.

I.
On September 13, 1995, Williams distributed cocaine base
and was convicted of one count of violating RSMo § 195.211
in May 1999. On or about July 25, July 27, and August
1, 2000, Williams sold cocaine and was convicted of three
counts of violating RSMo § 195.211 in October 2002.
The presentence investigation report (PSR) concluded that
Williams had “at least three prior convictions for a serious
drug offense, which were committed on different occasions,”
thus authorizing an enhanced sentence under the ACCA—a
statutory minimum of 180 months and a guidelines range of
180-210 months (which included a *783 3-level reduction
for acceptance of responsibility).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Williams, 976 F.3d 781 (2020)

Williams, by counsel, objected to the PSR's conclusion,
arguing “[i]t was an ongoing business of dealing drugs” and
that “because they were resolved the same day they constitute
one continuous occasion and therefore he would only have
two controlled substance convictions that count.”
Before sentencing, Williams moved to proceed pro se. He
asked the court to relieve his counsel because he thought
she had not filed his “requested pretrial motion, in order to
preserve Williams claims of relief before the United States
Appellate Court, if necessary.” He also claimed she had not
“filed any objections to the presentence report, in accordance
with Rule 32.” Williams feared he had not objected to the
PSR and would lose his right to appeal. His memorandum in
support of his motion argued that the evidence did not support
another (non-ACCA) enhancement and that he was not an
armed career criminal. The district court denied the motion.
At sentencing, Williams renewed his motion to proceed pro
se, again seeking to preserve his objections to the PSR. His
counsel said the objections were already raised on his behalf,
which she was prepared to argue. Finding the objections
already raised, the district court denied the motion. After
argument, the district court overruled the objections. The
government and defense counsel both recommended a 15year sentence, the bottom of the guidelines range.
Offered a chance to speak, Williams said that he “did not get a
chance to place my objection to the court of my Rule 32,” that
counsel refused to present his objections, and that when he
asked her to withdraw, she refused. He repeated his fear about
preserving his claims. The government asked to reconsider its
sentencing recommendation and suggested a Faretta hearing
to determine whether Williams could represent himself.
The district court reminded Williams that it overruled his
objections, and the government had recommended the lowest
end of the guidelines. The court explained, “15 to life is the
statutory range. The guideline range is 180 to 210.” He told
Williams that “based on my findings, you have to get at
least 15 years,” but that if they proceed with the hearing,
the government may reconsider its recommendation of 180
months. His counsel added that she had addressed “all of the
issues.”
The court then allowed
“So there you go, Mr.
your game with you.
recommendation.” After

the hearing to proceed, saying,
Williams. We're going to play
They've just withdrawn their
several questions to Williams

about representing himself, he finally decided not to
represent himself, recognizing his objections were preserved.
Calling a “timeout” to reconsider, the government made “a
new recommendation based on the defendant's comments
regarding his appeal and his confidence in the success of
that appeal.” The government said that it “reflects on the
genuineness of his acceptance of responsibility in this case.”
The government then recommended 16 years (192 months).
Williams's counsel asked for 180 months, arguing that “the
20 minutes it took him to come to the realization that his
appeal would be preserved” should not cost him another
year in prison. Williams himself said he “never intended to
harm the Court in any type of way whatsoever, nor tried to
manipulate it.” The court, after considering the
18 U.S.C.
§ 3553(a) factors, sentenced Williams to 190 months.
On appeal, Williams argues that the government's increased
sentencing recommendation and the district court's sentence
were vindictive, denying him due process, and that his Sixth
Amendment rights were *784 violated when the district
court, not a jury, determined that his prior drug offenses
occurred on different occasions.

II.
[1] [2] In the district court, Williams did not claim that
the government's sentencing recommendation and the district
court's sentence were vindictive and denied him due process,
so this court reviews for plain error. United States v.
Washburn, 444 F.3d 1007, 1011 (8th Cir. 2006) (reviewing
claim of prosecutorial vindictiveness for plain error where
defendant did not object to an additional superseding
indictment before retrial); United States v. Furnish, 141 F.3d
1171, 1171 (8th Cir. 1998) (per curiam) (table opinion, text
at 1998 WL 184444), citing
United States v. Vontsteen,
950 F.2d 1086, 1093 (5th Cir. 1992) (en banc) (holding
that “contemporaneous objection was necessary to preserve”
vindictiveness claim). Plain error review is governed by a
four-part test.

[B]efore an appellate court can correct
an error not raised at trial, there must
be (1) error, (2) that is plain, and (3)
that affects substantial rights. If all
three conditions are met, an appellate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Williams, 976 F.3d 781 (2020)

court may then exercise its discretion
to notice a forfeited error, but only
if (4) the error seriously affects the
fairness, integrity, or public reputation
of judicial proceedings.

United States v. Pirani, 406 F.3d 543, 550 (8th Cir. 2005)
(en banc).
Williams argues (1) the record shows actual vindictiveness
by the government and (2) the district court's acts require
a presumption that it vindictively sentenced him to 190
months, rather than the 180 months initially recommended
by the government. He insists that the government's
increased sentencing recommendation was in “retaliation” for
Williams's request to proceed pro se and his insistence on
repeating PSR objections on the record to preserve them for
appeal, and that the district court “expressed annoyance with
Williams,” making comments showing a vindictive motive.

A.

[5] Revising a sentencing recommendation for a legitimate
reason during a sentencing hearing is not prosecutorial
vindictiveness. See id., at 462 (finding no prosecutorial
vindictiveness if the prosecutor's decision is based on
some objective reason other than to punish the defendant
for exercising his legal rights). See generally
Koski v.
Samaha, 648 F.2d 790, 797 (1st Cir. 1981) (in two tier
system, defendant exercised right de novo trial, and the *785
prosecutor recommended a higher sentence than previously
given on the identical charge) (“To overturn a conviction
or vacate a sentence on the theory that it was tainted by
‘vindictiveness’ in the prosecutor's actual or threatened
recommendation is to suggest that it was the prosecutor
not the judge who was running the court.”), relying on
Bordenkircher v. Hayes, 434 U.S. 357, 365, 98 S.Ct.
663, 54 L.Ed.2d 604 (1978) (holding that a plea-bargaining
prosecutor did not violate due process by threatening a more
serious charge (under a recidivist statute) if defendant did not
plead guilty);
United States v. Goodwin, 457 U.S. 368,
380-81, 102 S.Ct. 2485, 73 L.Ed.2d 74 (1982) (finding no
evidence of actual vindictiveness after a pretrial decision to
modify charges against the defendant because the prosecutor
“never suggested that the charge was brought to influence the
respondent's conduct”).

[3]
[4] “Although the government may take action to
punish a defendant for committing a crime, punishing a
defendant for exercising his valid legal rights is impermissible
B.
prosecutorial vindictiveness.” United States v. Campbell,
410 F.3d 456, 461 (8th Cir. 2005). However, the defendant's
[6] Williams asserts that the district court's statements that
evidentiary “burden is a heavy one, and we recognize the
Williams
was “chasing rabbits” and (twice) “wants to play
broad discretion given to prosecutors in enforcing criminal
some
games”
demonstrates “actual vindictive motive, or, at
statutes.” Id.
minimum, a reasonable likelihood of a vindictive motive.”
After defense counsel referred to (paid) advice from another
True, the government initially recommended 180 months
prisoner, the district court said, “I usually encourage people
in prison—the statutory minimum—and increased its
not to listen to the jailbirds, to listen to the lawyers.” The
recommendation after Williams repeatedly made his
court explained to Williams that the government had implied
objections. However, the government also said his acts
that it could be to his disadvantage to insist that he repeat the
reflected on his acceptance of responsibility. Cf.
U.S.S.G.
objections his lawyer had already made, noting:
§ 3E1.1, cmt. n.3. (evidence of acceptance of responsibility
He's recommended the lowest end of the guidelines for you,
“may be outweighed by conduct of the defendant that is
which is 180 months, which I thought was very generous
inconsistent with such acceptance of responsibility”). See
of the Government.
generally Campbell, 410 F.3d at 462 (“A presumption does
not arise just because action detrimental to the defendant
The Government's saying, listen, if Mr. Williams wants
was taken after the exercise of the defendant's legal rights;
to play some games here, maybe we should go ahead
the context must also present a reasonable likelihood of
and exhaust this and chase these rabbits, and their
vindictiveness.”).
recommendation might be different.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Williams, 976 F.3d 781 (2020)

[7] Williams seeks a presumption of judicial vindictiveness,
but it does not apply if the judge has no personal stake in
prior proceedings. See United States v. Fry, 792 F.3d 884, 890
(8th Cir. 2015) (no presumption where defendant complained
about “a disparity of sentences imposed on two different
people”);
Texas v. McCullough, 475 U.S. 134, 139, 106
S.Ct. 976, 89 L.Ed.2d 104 (1986) (judge who grants motion
for new trial has no personal stake and may resentence after
Colten v. Kentucky, 407 U.S. 104, 117, 92
new trial);
S.Ct. 1953, 32 L.Ed.2d 584 (1972) (no presumption after
defendant receives a higher sentence, in a two-tiered system
(trial de novo in a superior court) due to the “completely fresh
determination of guilt and innocence”). The cases Williams
cites about the presumption all involve an unexplained higher
sentence after retrial. See
North Carolina v. Pearce, 395
U.S. 711, 723-25, 89 S.Ct. 2072, 23 L.Ed.2d 656 (1969)

Regardless, Williams cannot show that his substantial rights
were affected. The district court considered the sentencing
factors at length, stressing those important to the sentence.
“So I've considered all the factors under
18 U.S.C.
3553(a). You've got eight prior felonies, right, before this
one? This is your ninth felony. It's all involving dope. This
goes to your history and your characteristics.
....
The factors that are important here are the nature and
circumstances of this offense, the different types of drugs
you had, the fact that you had the gun for three years,
according to your admission. Understandable being in the
drug business as long as you have been, it's understandable
that you want a gun to help you with the drug business. The
need for the sentence imposed reflects the seriousness of
the offense, promotes respect for the law and provides just
punishment, the need for adequate deterrence is important
in this case. The need to protect the public from further
crimes is of paramount importance in this case.

(retrial after reversal on appeal);
Alabama v. Smith,
490 U.S. 794, 798-99, 109 S.Ct. 2201, 104 L.Ed.2d 865
(1989) (explaining “whenever a judge imposes a more severe
sentence upon a defendant after a new trial, the reasons
for him doing so must affirmatively appear. ... Otherwise,
a presumption arises that ... must be rebutted by objective
information ... justifying the increased sentence”) (internal
quotation marks omitted). The Supreme Court makes clear
that the presumption was not designed to prevent a higher
sentence “for some valid reason associated with the need
for flexibility and discretion in the sentencing process,”
but was “premised on the apparent need to guard against

The district court then imposed a within-guidelines sentence
two months below the government's recommendation, and ten
months more than the statutory minimum.

vindictiveness in the resentencing process.”
Chaffin v.
Stynchcombe, 412 U.S. 17, 25, 93 S.Ct. 1977, 36 L.Ed.2d 714
(1973).

Liteky v. United States, 510 U.S. 540, 555, 114 S.Ct.
1147, 127 L.Ed.2d 474 (1994) (“judicial remarks during the
course of a trial that are critical or disapproving of, or even
hostile to, counsel, the parties, or their cases, ordinarily do not

*786 As for actual vindictiveness, this court has never

support a bias or partiality challenge”);
Waring, 7 F.3d at
759-60 (“Given the presumption of judicial impartiality we
will not assume that a judicial officer's action was based on
an unconstitutional grudge, rather than the proper legal basis
that he stated on the record at the time the action was taken.”).

held an initial sentence to be “vindictive.” See
Waring v.
Delo, 7 F.3d 753, 758 (8th Cir. 1993) (use of an insulting
vernacular while sentencing did not support the conclusion
that district court became angry at defendant for moving to
withdraw his guilty plea). Williams cites no case holding an
initial sentence vindictive in a way that denies due process.
See
United States v. Anderson, 440 F.3d 1013, 1016 (8th
Cir. 2006) (“The rule suggested by these cases makes sense
because the motivation to be vindictive arises when a judge
with a personal stake in the prior proceedings is asked to do
over what [he or she] thought [he or she] had already done
correctly.”) (internal quotation marks omitted).

Under these facts, on plain error review, Williams does not
meet the “heavy” burden of demonstrating his sentence was
vindictive. See Campbell, 410 F.3d at 461. See generally

III.
[8] Williams argues that the district court violated his
constitutional rights to due process and a jury trial by finding
that his prior convictions occurred on different occasions,
precipitating an ACCA sentence. This court reviews de novo
the district court's application of the ACCA enhancement.
United States v. Wyatt, 853 F.3d 454, 458 (8th Cir. 2017).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Williams, 976 F.3d 781 (2020)

“The ACCA establishes a fifteen-year minimum prison
sentence for any person who violates
§ 922(g) and ‘has
three previous convictions by any court ... for a violent felony
or a serious drug offense, or both, committed on occasions
different from one another.’ ” Id., citing 18 U.S.C. § 924(e)
(1). Here, the PSR reported that Williams was convicted
four times of violating Missouri Revised Statute § 195.211,
a serious drug offense under the ACCA. *787 See United
States v. Brown, 408 F.3d 1016, 1018 (8th Cir. 2005). The
PSR separately details sales of a controlled substance on or
about September 13, 1995; July 25, 2000; July 27, 2000;
and August 1, 2000. Williams acknowledges he “did not
challenge any factual allegations set forth in the PSR” and
“did not contest any factual allegation ... contained in the
PSR.” See Fed. R. Crim. P. 32(i)(3)(A) (at sentencing, the
court “may accept any undisputed portion of the presentence
report as a finding of fact”). The district court determined
that Williams's prior convictions occurred on four different
occasions and applied the ACCA enhancement.

this court holds that a sentencing court may determine
whether potential ACCA-predicate offenses occurred on
“different occasions.” See United States v. Harris, 794 F.3d
885, 887 (8th Cir. 2015) (holding no violation of the Sixth
Amendment when the district court found prior offenses
were committed on different occasions without requiring
proof beyond a reasonable doubt to a jury);
United
States v. Evans, 738 F.3d 935, 936-37 (8th Cir. 2014) (same)
(collecting cases).
Williams also argues that to determine the dates, the district
court erred in relying on the PSR, which summarizes the state
“Information” (substitute for indictment) and the judgment.
This court rejected this argument in
United States v.
Richardson, 483 Fed. Appx. 302, 305 (8th Cir. 2012) (per
curiam) (rejecting an argument that the sentencing court's use
of the dates in the PSR to determine the dates of the predicate
offenses violated the defendant's Sixth Amendment rights),

approved in
Evans, 738 F.3d at 936. See United States
v. Boyd, 956 F.3d 988, 991-92 (8th Cir. 2020) (district court
did not err in relying on police reports for sentencing when
[9] [10] Williams argues that this determination is a fact the reports were described in the PSR and defendant did not
to be decided by a jury, not the judge. This argument is
object to them before the district court).
foreclosed by precedent. The Supreme Court rejected the
constitutional claim that “recidivism must be treated as an
The district court did not err by deciding, without a jury, that
element of [petitioner's] offense,” and therefore presented to a
Williams's four prior serious drug offenses were “committed
on occasions different from one another.”
jury for proof beyond a reasonable doubt.
AlmendarezTorres v. United States, 523 U.S. 224, 248, 118 S.Ct.
*******
1219, 140 L.Ed.2d 350 (1998).
Almendarez-Torres
“stands for the proposition that not every fact expanding
The judgment is affirmed.
a penalty range must be stated in a felony indictment,
the precise holding being that recidivism increasing the
All Citations
maximum penalty need not be so charged.”
Jones
v. United States, 526 U.S. 227, 248, 119 S.Ct. 1215, 143
976 F.3d 781
L.Ed.2d 311 (1999). Interpreting

Almendarez-Torres,

Footnotes
1

The Honorable David G. Kays, United States District Judge for the Western District of Missouri.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

012345ÿ738347ÿ9 0 3ÿ ÿ8 487ÿ
ÿ34ÿ423ÿ92 9023ÿ
ÿÿ
ÿ
ÿ!"#ÿ$ÿ%&'("ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ%))**ÿ
ÿ
+,ÿ
ÿ
-.'#).'ÿ/**"&#ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ%))**"ÿ

ÿ
ÿ
000000000000000000000000000000000000000000000000000000000000000000000000000000ÿÿ
%))"*ÿ$'&ÿ,!,ÿ1#'(ÿ-2'ÿ$'ÿ.ÿ/#'ÿ1#'(ÿ$ÿ3##2'ÿÿ4"#"#ÿ-5ÿ
678('991:4;ÿ
000000000000000000000000000000000000000000000000000000000000000000000000000000ÿÿ
54 ÿ
ÿ
ÿ <.ÿ)ÿ$'ÿ'."'=ÿÿ>"(ÿ#ÿ,ÿ<.ÿ)ÿ$'ÿ'."'=ÿ>5ÿ.ÿ)"*ÿ#ÿ
"*#ÿ,ÿÿ
ÿ ÿ ÿ ÿ ÿ ÿ ÿ +&>'ÿ8?ÿ99ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
@''ÿA'ÿ"ÿ.ÿ1'(ÿ$ÿ.ÿ-2'ÿÿ
-*'B?ÿ,!,ÿ-2'ÿ$ÿ%))"*#?ÿA=..ÿ-'(2,ÿÿ
000000000000000000000000000000000000ÿÿ
ÿ ÿÿÿÿÿÿÿC#Cÿ3(."*ÿA,ÿ:"#ÿÿ

App B

DEEFGGHIFÿKHLFMÿNOPQQRSÿÿÿÿÿTHUFMÿNÿÿÿÿÿÿVHIFÿWXGFYMÿNNZN[ZQ\Q\ÿ]^I_`ÿaVMÿbO[cSbdÿ

